APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(July 19, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Illinois
(June 14, 2018) . . . . . . . . . . . . . . App. 18
Appendix C Judgment in a Civil Case in the
United States District Court for the
Northern District of Illinois
(December 13, 2017) . . . . . . . . . . App. 34
Appendix D Order in the United States District
Court for the Northern District of
Illinois
(December 12, 2017) . . . . . . . . . . App. 36
Appendix E Order Denying Rehearing in the
United States Court of Appeals for the
Seventh Circuit
(August 14, 2019) . . . . . . . . . . . . App. 46

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-2535
[Filed July 19, 2019]
________________________________
CHRISTIAN K. NARKIEWICZ-LAINE, )
Plaintiff-Appellant,
)
)
v.
)
)
KEVIN C. DOYLE, et al.,
)
Defendants-Appellees. )
________________________________ )
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:11-cv-1826 — Frederick J. Kapala, Judge.
ARGUED APRIL 5,2019 — DECIDED JULY 19, 2019
Before FLAUM, KANNE, and SCUDDER, Circuit Judges.
SCUDDER, Circuit Judge. This case arose from the
destruction of personal property and artwork belonging
to Christian Narkiewicz-Laine, an artist.
Narkiewicz-Laine stored his artwork and other
belongings in a space in Galena, Illinois that he rented
from the defendants. Years into the lease, the
defendants emptied the unit, destroying the majority of
Narkiewicz-Laine’s property. He responded by suing to

App. 2
recover for the loss of his property. After a six-day trial,
the jury awarded him damages on multiple claims.
Unsatisfied with his damages award, Narkiewicz-Laine
now appeals, challenging a number of the district
court’s rulings made along the way. We affirm.
I
The lease between Narkiewicz-Laine and the
defendants, members of the Doyle family and affiliated
entities, began in 2004. About six years later, the
defendants cleared the rental space and discarded the
majority of his property, including the only records he
had listing the property stored in the unit.
Narkiewicz-Laine then brought this suit, pursuing
claims under an amendment to the Copyright Act
known as the Visual Artists Rights Act of 1990, 17
U.S.C. § 106A, to recover for the destruction of his
artwork. For certain types of visual art, the Act confers
upon artists rights to attribution and integrity—
including, for particular qualifying works, the right to
prevent the work’s destruction. See Kelley v. Chicago
Park Dist., 635 F.3d 290, 296 (7th Cir. 2011).
Narkiewicz-Laine added common law claims for
trespass, conversion, and negligence under Illinois law.
He based these latter claims on a broader theory of
recovery that would allow him to obtain damages for all
of his lost property—the entirety of his destroyed
artwork and other items of personal property.
The case proceeded to trial. Narkiewicz-Laine
testified on the central issue of what property and art
had been stored in the rental unit. He did so by
introducing a list of all the artwork and personal

App. 3
property, explaining that he prepared the inventory
after learning of the destruction by checking his
personal records, contacting institutions where his
work had been exhibited, and attempting to obtain
photographs of his work from friends. The inventory
listed 1,457 pieces of Narkiewicz-Laine’s own artwork,
items of personal property, and artwork created by
others that he had stored in the rental unit. He asked
the jury to award him $11 million for his losses.
For their part, the defendants presented evidence
that Narkiewicz-Laine had missed multiple rent
payments and long since stopped paying for the
utilities for the property. The defendants also
underscored that, prior to emptying the space, they saw
nothing resembling art or valuable personal property
in the rental unit. The defendants took the position
that they disposed of junk, not art.
In the course of the trial, the defendants impeached
Narkiewicz-Laine with a prior conviction for lying to an
FBI agent. Prior to trial, the district court had denied
Narkiewicz-Laine’s motion to exclude evidence of the
conviction, which was over ten years old.
The jury returned a verdict in Narkiewicz-Laine’s
favor. It found that the defendants had destroyed four
pieces of artwork protected under the Visual Artists
Rights Act and awarded $120,000 in damages. But the
jury did not award him damages on the remainder of
the works for which he had claimed damages under the
Act—some 1,453 other pieces of artwork. As for the
common law claims, the jury decided in
Narkiewicz-Laine’s favor and awarded $300,000,

App. 4
reflecting the loss of all the artwork and other
belongings stored at the unit.
Following the trial, the district court reduced
Narkiewicz-Laine’s total damages award from $420,000
to $300,000 to avoid what it saw as an improper double
recovery. It determined that the jury’s award on the
common law claims needed to be reduced by the
amount he recovered for the destruction of his works
protected under the Visual Artists Rights Act, as some
of the damages were duplicative. Even more
specifically, the court reasoned that the award for
Narkiewicz-Laine’s common law claims—which
compensated him for the loss of all property and
artwork that had been destroyed—necessarily included
the loss caused by the destruction of the subset of his
artwork protected under the Visual Artists Rights Act.
Next, the district court concluded that
Narkiewicz-Laine was not entitled to attorneys’ fees
under the Copyright Act. The court reasoned that,
while he had won a damages award covering some of
the works, he also lost the majority of the claims he
brought under the Visual Artists Rights Act—his
claims covered 1,457 protected works, but he prevailed
only as to four of those works. In the court’s view, then,
there was no clear prevailing party and
Narkiewicz-Laine was not entitled to attorneys’ fees.
II
On appeal Narkiewicz-Laine seeks a new trial on
his claims under the Visual Artists Rights Act and a
reversal of the district court’s post-trial rulings

App. 5
reducing his damages award from $420,000 to $300,000
and denying his application for attorneys’ fees.
A
We begin with Narkiewicz-Laine’s argument that he
is entitled to a new trial because the district court
never should have allowed the defense to impeach him
with his 2003 conviction for making false statements to
an FBI agent—a conviction well over ten years old at
the time of the trial. Narkiewicz-Laine likewise takes
issue with the scope of cross-examination that the
district court allowed at trial regarding the conviction.
On that score, he asserts that the district court
improperly allowed the defendants to cross-examine
him with the plea agreement from his 2003 conviction
to elicit information about other charges of which he
was never convicted. He further contends that the
district court erred in allowing the defendants to
impeach his expert witness by asking a question that
improperly characterized Narkiewicz-Laine as an “art
felon.”
Our review of the district court’s decision to admit
Narkiewicz-Laine’s prior conviction as well as its other
evidentiary rulings related to the use of the conviction
at trial is limited. We ask only whether those rulings
reflected an abuse of discretion. See Barber v. City of
Chicago, 725 F.3d 702, 707 (7th Cir. 2013). Even then,
we will not reverse if the error was harmless. See
Whitehead v. Bond, 680 F.3d 919, 930 (7th Cir. 2012).
Rather, reversal is required if the evidentiary error
“had ‘a substantial and injurious effect or influence on
the jury’s verdict.’” United States v. Redditt, 381 F.3d
597, 601 (7th Cir. 2004) (quoting United States v.

App. 6
Woods, 301 F.3d 556, 562 (7th Cir. 2002)). Evidentiary
errors meet this standard “only when a significant
chance exists that they affected the outcome of the
trial.” Whitehead, 680 F.3d at 930.
Federal Rule of Evidence 609 supplies the
controlling analytical framework. Rule 609(a)(2) allows
into evidence—for purposes of impeachment—a
witness’s prior conviction for a crime involving
dishonesty. But the Rule sets up different
presumptions for convictions more than ten years old,
like Narkiewicz-Laine’s here. Evidence of such a
conviction is admissible only if “its probative value,
supported by specific facts and circumstances,
substantially outweighs its prejudicial effect.” Fed. R.
Evid. 609(b)(1).
In this way, Rule 609 tilts the analysis in favor of
excluding evidence of convictions over ten years old.
Such convictions, we have emphasized, should be
admitted “only in rare and exceptional circumstances.”
United States v. Rogers, 542 F.3d 197, 201 (7th Cir.
2008). But so too is it true that there exists no absolute
bar to admitting a conviction over ten years old, and we
will uphold the district court’s decision doing so “as
long as the record shows that the district court
thoughtfully analyzed the facts and properly weighed
the probative value of the evidence against its
prejudicial effect.” Redditt, 381 F.3d at 601.
The district court’s decision to allow
Narkiewicz-Laine’s 2003 conviction respected these
principles. The court rested its ruling on a thoughtful
analysis balancing the probative value of the evidence
of the conviction against the prejudicial effect of

App. 7
admitting it. See United States v. Montgomery, 390
F.3d 1013, 1015 (7th Cir. 2004) (articulating the factors
to be considered in determining whether the probative
value of a conviction outweighs its prejudicial effect).
Recognizing the probative value of the conviction to
Narkiewicz-Laine’s credibility, the district judge took
care to consider the importance of his testimony to his
case and the low risk that the jury would improperly
hold the conviction against him.
Recall that with the emptying of the rental unit
went all documentation of what existed in the space.
Narkiewicz-Laine attempted to recreate such an
inventory after the fact, and testified to his compilation
at trial. His testimony, then, served as the evidence
establishing the existence of many of the items for
which he claimed damages. As the district court saw it,
this made Narkiewicz-Laine’s testimony and credibility
pivotal to his case, weighing in favor of admitting the
2003 conviction. Further, the district court saw the fact
that the conviction implicated Narkiewicz-Laine’s
truthfulness—because it involved making false
statements—as adding to its impeachment value. The
district court also noted that the 2003 conviction had
little similarity to Narkiewicz-Laine’s current claims,
a reality that lowered the risk of the jury using the
evidence for something other than impeachment.
Narkiewicz-Laine argues that the district court
compounded the error of admitting his 2003 conviction
by allowing the defendants too much latitude in their
use of the conviction on cross-examination. To be sure,
these observations are not without weight. But, in the
end, we need not determine whether these evidentiary

App. 8
rulings amounted to an abuse of discretion, because
even assuming that the district court erred, any impact
was harmless. Viewing the trial evidence as a whole,
we fail to see how the admission and use of the 2003
conviction at trial adversely skewed the jury’s verdict.
This is especially so because the court instructed the
jury that it could consider the evidence of
Narkiewicz-Laine’s 2003 conviction only for the limited
purpose of determining whether his testimony was
truthful. See Rogers, 542 F.3d at 201 (explaining that
“where a limiting instruction is given ... the error
usually will be harmless”).
And more significantly, it is far from clear that the
admission of the 2003 conviction—and related
testimony elicited on cross-examination—had any
effect whatsoever on the jury’s verdict. Remember that
Narkiewicz-Laine won part of the trial: the jury
awarded him damages for some of the claimed artwork
and personal property. To do so, the jury had to have
credited at least some of Narkiewicz-Laine’s testimony
and, in the process, rejected the defendants’ position
that the destroyed property was all scrap without any
significant value. Narkiewicz-Laine presents no
persuasive explanation as to why the use of his
conviction at trial might have influenced the jury’s
decision regarding some of his claimed losses but not
others. It is equally telling that he seeks a new trial
only as to his claims under the Visual Artists Rights
Act. In charting this course, Narkiewicz-Laine seems to
accept that the use of his 2003 conviction did not affect
the jury’s consideration of his common law claims, even
though those claims also depended heavily on his
testimony and the jury’s assessment of his credibility.

App. 9
None of Narkiewicz-Laine’s evidentiary challenges
clears the reversible error hurdle because we cannot
conclude that the admission and use of his prior
conviction at trial had a substantial or injurious
effect—or indeed, any discernible effect at all—on the
jury’s verdict.
B
That brings us to Narkiewicz-Laine’s argument that
the district court abused its discretion in reducing the
jury award. Here, too, we disagree.
The jury returned a verdict for Narkiewicz-Laine on
his claims under the Visual Artists Rights Act and
determined two damage amounts: $120,000 in actual
damages or, in the alternative, $120,000 in statutory
damages. The jury also found in his favor on his
common law claims of trespass, conversion, and
negligence and awarded him $300,000 for the loss of all
of his property discarded from the rental unit. To
preclude what it saw as a double recovery, the district
court reduced the jury’s award for the common law
claims ($300,000) by the actual loss he sustained for
the works protected under the Visual Artists Rights
Act ($120,000). Narkiewicz-Laine was instead
compensated for the loss of these works by the jury’s
award of statutory damages under the Act ($120,000).
This left him with a total award of $300,000.
Narkiewicz-Laine brought his common law claims
under Illinois law, so we begin there. Under Illinois
law, “an injured plaintiff may receive only one full
compensation for his or her injuries.” Illinois Sch. Dist.
Agency v. Pac. Ins. Co., 571 F.3d 611, 615 (7th Cir.

App. 10
2009) (quoting Thornton v. Garcini, 382 Ill. App. 3d
813, 820 (2008)). To prevent a double recovery, a
damage award must be reduced “to offset any amounts
that the plaintiff already has collected from other
sources in compensation for the same injury.” Id. at
615-16.
To assess whether the jury’s award would have
afforded Narkiewicz-Laine a double recovery, we must
turn to § 504 of the Copyright Act, the provision
authorizing the recovery of damages on his Visual
Artists Rights Act claims. Under § 504, a plaintiff may
elect to recover either actual damages or statutory
damages but not both. See 17 U.S.C. § 504(c)(1). A
plaintiff electing statutory damages must make that
choice “at any time before final judgment is rendered”
and may recover a set range—between $750 and
$30,000—for each work. Id. Here, Narkiewicz-Laine
elected to receive statutory damages. That choice
meant he could not recover actual damages for the
same works.
What complicates our discussion here is the jury’s
identical calculation of actual and statutory damages
under the Visual Artists Rights Act: $120,000 for each.
That makes it tempting to view the awards as
interchangeable. But statutory damages and actual
damages are distinct under the Copyright Act:
statutory damages compensate for harms different
from actual loss. See Bucklew v. Hawkins, Ash, Baptie
& Co., LLP, 329 F.3d 923, 931 (7th Cr. 2003)
(explaining that § 504 “authorize[s] statutory damages
unrelated to losses or gains”). And in the context of the
Visual Artists Rights Act specifically, decoupling

App. 11
statutory damages from actual losses accords with the
statute’s purpose to protect the “moral rights” of
artists—rights “unrelated to the artist’s pecuniary
interests” and instead “grounded in philosophical ideas
about the intrinsic nature and cultural value of art
rather than natural-property or utility justifications.”
Kelley, 635 F.3d at 296.
Relying on Congress’s desire to protect the moral
rights of artists, Narkiewicz-Laine argues he is entitled
to both the $120,000 in statutory damages under the
Act and the $300,000 in actual damages on his common
law claims. To his mind, this does not amount to a
double recovery because the $120,000 he was awarded
in statutory damages addressed his moral rights, while
the $300,000 in actual damages compensated him for
his property rights.
Couched this way, Narkiewicz-Laine’s position has
surface appeal. A closer look shows that the analysis
misses the mark, though. The biggest problem for
Narkiewicz-Laine is that § 504 of the Copyright Act
precludes him from recovering for both actual and
statutory damages for the same works, and under his
theory, that is exactly what he would be allowed to do.
The jury’s verdict and the related instructions bear this
out.
The jury instructions made clear that both actual
damages under the Visual Artists Rights Act and
damages for Narkiewicz-Laine’s common law claims
would compensate him for the same type of loss. We
have no doubt on this point because the district court
instructed the jury to assess actual damages under the
Act and damages on the common law claims with the

App. 12
same measuring stick: the “fair market value” of the
destroyed property. The court further explained that
the damages for the common law claims would
compensate Narkiewicz-Laine for the value of all his
property. This necessarily included any works the jury
found to be protected under the Visual Artists Rights
Act.
The instructions did not direct the jury to exclude
the loss caused by the destruction of NarkiewiczLaine’s works protected under the Act from its
calculation of damages on his common law claims. This
had a clear consequence: the $300,000 awarded on the
common law claims—for all property lost— necessarily
included the subset of works that were specifically
covered under the jury’s verdict on the Visual Artists
Rights Act claims. And even though Narkiewicz-Laine
elected to receive statutory damages, we cannot ignore
the jury’s express finding that the fair value of his loss
on the four works covered by the Visual Artists Rights
Act amounted to $120,000. Because Narkiewicz-Laine
is not entitled to recover twice for the same property,
the actual damages attributed to those four works must
be subtracted out of the jury’s award of actual damages
for all destroyed property.

App. 13
Perhaps this conclusion is easier illustrated this
way:
Jury award on common
law claims for all losses

$300,000

Portion of that award
covering the four works
protected by the Visual
Artists Rights Act

-$120,000

Net common law award

$180,000

Jury award of statutory
damages for the four
Visual Artists Rights
Act works

+$120,000

Adjusted total award

$300,000

Skipping the subtraction step would allow
Narkiewicz-Laine to recover twice for his loss of the
same artwork covered by both the jury’s award on his
common law claims and the separate award on his
claims under the Visual Artists Rights Act. On this
record, the district court did not abuse its discretion in
reducing the damages on the common law claims.
The trial record affords a different, alternative path
to the same conclusion. During the jury instruction
conference, Narkiewicz-Laine’s counsel assured the
defendants and the judge that his client was not
seeking to recover under both the common law and the
Visual Artists Rights Act for the same losses. In no
uncertain terms, he explained that Narkiewicz-Laine
was not taking the position that “a VARA work could

App. 14
recover both under VARA and under the common law.”
The court and the defendants accepted these
assurances at face value. Indeed, the defendants had
originally proposed a verdict form for the common law
claims that would have instructed the jury to exclude
arty award for property that was included in the
damage award under the Visual Artists Rights Act
claims. After receiving these assurances, the
defendants agreed to withdraw their form, and the
resulting jury verdict form did not instruct the jury to
exclude damages for the Visual Artists Rights Act
artwork from its calculation of damages on
Narkiewicz-Laine’s common law claims.
In a similar vein, during closing argument,
Narkiewicz-Laine’s counsel asked the jury to include
works protected under the Visual Artists Rights Act in
its calculation of actual damages for the common law
claims. He went so far as to assure the jury that, even
though these works would be included in the
calculation of damages for the common law claims,
“nobody is trying to get paid twice.” Cementing the
point, counsel then explained that, if the jury awarded
actual damages for the Visual Artists Rights Act works
and actual damages for the common law claims, then
the actual damages for the Visual Artists Rights Act
works would be subtracted from the damage award for
the common law claims, stating “[t]he Judge will do
this.”
On this record, Narkiewicz-Laine cannot be allowed
an unjust about-face on appeal: he is urging us to
reverse for the very reason he expressly disavowed at
trial. See New Hampshire v. Maine, 532 U.S. 742, 749

App. 15
(2001) (quoting Davis v. Wakelee, 156 U.S. 680, 689
(1895)) (“[W]here a party assumes a certain position in
a legal proceeding, and succeeds in maintaining that
position, he may not thereafter, simply because his
interests have changed, assume a contrary position,
especially if it be to the prejudice of the party who has
acquiesced in the position formerly taken by him.”).
Recognizing that Narkiewicz-Laine was attempting to
assume a contrary position to the detriment of the
defendants, the district court got it right in reducing
Narkiewicz-Laine’s award from $420,000 to $300,000.
C
We owe a final word to the district court’s decision
not to award Narkiewicz-Laine attorneys’ fees. The
Copyright Act—of which the Visual Artists Rights Act
is part—provides that “in its discretion,” a district
court may award costs, including attorneys’ fees to the
“prevailing party.” 17 U.S.C. § 505. Under this section,
“[p]revailing plaintiffs and prevailing defendants are to
be treated alike, but attorney’s fees are to be awarded
to prevailing parties only as a matter of the court’s
discretion.” Fogerty v. Fantasy, Inc., 510 U.S. 517, 534
(1994).
Narkiewicz-Laine contends he is presumptively
entitled to attorneys’ fees as the prevailing party. See
Riviera Distributors, Inc. v. Jones, 517 F.3d 926, 928
(7th Cir. 2008) (explaining that a prevailing party in
copyright litigation is “presumptively entitled to
reimbursement of its attorneys’ fees”). But his
argument misaligns with what happened here by
assuming that he prevailed across the board at trial.
Not so.

App. 16
True enough, the district court entered judgment in
the amount of $120,000 for Narkiewicz-Laine on his
Visual Artists Rights Act claims. And NarkiewiczLaine is correct to observe that a litigant is deemed to
have prevailed when he obtains a “material alteration
of the legal relationship of the parties”—in other words,
a judgment in his favor. Id. (quoting Buckhannon Bd.
& Care Home, Inc. v. W. Virginia Dep’t of Health &
Human Res., 532 U.S. 598, 604 (2001)). But it is also
true that—though embodied in only one count in his
complaint—Narkiewicz-Laine asserted multiple claims
under the Visual Artists Rights Act covering 1,457
independent pieces of artwork and seeking damages far
beyond what he actually recovered. The jury found for
Narkiewicz-Laine on only four of those claims. The
flipside is that the jury necessarily found for the
defendants on the remaining claims under the Visual
Artists Rights Act—indeed, on the vast majority of
those claims.
As the district court explained, that
Narkiewicz-Laine “chose to plead all of his VARA
claims in one count should not dictate who is
determined to be the prevailing party.” And, unlike in
the context of civil rights suits in which a plaintiff need
not prevail on every claim to be considered the
prevailing party, plaintiffs and defendants are on equal
footing for the purposes of fee awards under § 505. See
Fogerty, 510 U.S. at 524 (explaining that, in the civil
rights context Congress sought to redress an imbalance
between plaintiffs and defendants “by treating
successful plaintiffs more favorably than successful
defendants in terms of the award of attorney’s fees,”
but that no such objective existed for awarding fees

App. 17
under the Copyright Act). Where, as here, the jury’s
verdict points in two directions as to who prevailed, the
district court was well within its discretion in declining
to grant Narkiewicz-Laine fees.
The same reasoning leads us to reject the
defendants’ argument that they should be awarded
their costs and fees of defending this appeal. While it is
true that when a party “wins a suit and is entitled by
statute to a reasonable attorneys’ fee, the entitlement
extends to the fee he reasonably incurs in defending
the award of that fee,” JCW Investments, Inc. v.
Novelty, Inc., 509 F.3d 339, 342 (7th Cir. 2007) (quoting
Gorenstein Enterprises, Inc. v. Quality Care-USA, Inc.,
874 F.2d 431, 438 (7th Cir. 1989)), that is not the
scenario before us. The district court did not declare
either side a prevailing party; nor does the defendants’
victory on appeal transform them into one. The
defendants are thus not entitled to an award of
attorneys’ fees for their costs in litigating this appeal.
Accordingly, we AFFIRM.

App. 18

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
Case No: 11 C 1826
Judge Frederick J. Kapala
[Filed June 14, 2018]
_____________________________
Christian K. Narkiewicz-Laine, )
)
Plaintiff,
)
)
v.
)
)
Kevin C. Doyle, et al.,
)
)
Defendants.
)
_____________________________ )
ORDER
Plaintiff’s motion for new trial, for judgment
notwithstanding the verdict, and to alter judgment
[286] is denied. Defendants’ motion for attorney fees
and expenses [283] is denied.
STATEMENT
Currently before the court are several post-trial
matters. Plaintiff has filed a renewed motion for
judgment as a matter of law pursuant to Federal Rule
of Civil Procedure 50(b), or in the alternative a motion

App. 19
for new trial pursuant to Rule 59(a), arguing that the
jury’s verdict—which resulted in a judgment in favor of
plaintiff—was against the manifest weight of the
evidence. Plaintiff also moves to amend the judgment
pursuant to Rule 59(e) in order to add prejudgment
interest. Finally, the parties have submitted briefing on
the issue of attorney’s fees in which both parties claim
to be the prevailing party entitled to a fee award. As
explained below, each of these requests is denied and
the court’s judgment will stand, with each party to bear
their own costs.
I. RENEWED MOTION FOR JUDGMENT AS A
MATTER OF LAW
Rule 50(a) allows the court to grant a motion for
judgment as a matter of law against a party if “the
court finds that a reasonable jury would not have a
legally sufficient evidentiary basis to find for the party”
on a particular issue. Fed. R. Civ. P. 50(a). During the
trial, plaintiff filed a motion under Rule 50(a) seeking
a judgment as a matter of law in his favor on his claim
under the Visual Artists Rights Act of 1990 (“VARA”),
17 U.S.C. § 106A, raised in Count I of the second
amended complaint.1 The court denied the motion,
noting that there was sufficient expert testimony
presented by defendants for the jury to find that there
were no works of recognized stature located in the
storage unit at the time plaintiff’s items were
discarded.

1

Plaintiff also sought a judgment as a matter of law on defendant’s
affirmative defense of abandonment, but that is no longer at issue
in this case given the jury’s verdict on the state-law claims.

App. 20
Pursuant to Rule 50(b), plaintiff has now filed a
renewed motion for judgment as a matter of law on
Count I, in which he contests the amount of damages
he received on that count. The jury found that only four
works of recognized stature were destroyed by
defendants and awarded plaintiff a total of $120,000 in
statutory damages. In his motion, plaintiff asserts that
“no reasonable jury could find that Defendants
destroyed only four VARA-qualified works,” and that
the evidence presented at trial established that
defendants “destroyed far more than four” of plaintiff’s
“VARA-qualified works.”
Under Rule 50(b), the court considers “whether the
evidence presented, combined with all reasonable
inferences permissibly drawn therefrom, is sufficient to
support the verdict when viewed in the light most
favorable to the party against whom the motion is
directed.” E.E.O.C. v. Mgmt. Hosp. of Racine, Inc., 666
F.3d 422, 431 (7th Cir. 2012). The court is “obliged to
leave the judgment undisturbed unless the moving
party can show that no rational jury could have
brought in a verdict against him.” Woodward v. Corr.
Med. Servs. of Ill., Inc., 368 F.3d 917, 926 (7th Cir.
2004). Moreover, the court “must accord substantial
deference to a jury’s determination of compensatory
damages.” Ramsey v. Am. Air Filter Co., 772 F.2d 1303,
1313 (7th Cir. 1985).
At trial, plaintiff attempted to show through the
testimony of his expert witnesses that all 1,457 works
of art listed in Plaintiff’s Exhibit #36 and depicted in
Plaintiff’s Exhibit #52 should be considered works of
recognized stature entitled to protection under VARA.

App. 21
But the fact that plaintiff may have presented evidence
to support his claim does not mean that the jury was
required to accept that evidence in its entirety. For
example, the jury could have rationally determined
that it was impossible to declare a work to be of
recognized stature when there was no photograph of
the original work available for plaintiff’s experts to
view or evaluate. Nearly half of the claimed VARA
works in Plaintiff’s Exhibit #36 do not have a
corresponding image depicted in Plaintiff’s Exhibit
#52.2 At a minimum, the jury may have disregarded
those works of art when determining which works
qualified as having recognized stature. In addition, the
jury could have simply disagreed with plaintiff’s
experts on any of the other works that were included in
the list, especially considering that their testimony on
this issue was general and did not address specific
details about each claimed work of recognized stature.
See Walker v. Sheahan, 526 F.3d 973, 979 (7th Cir.
2008) (“[A] reasonable jury could disagree with [one
party’s] expert and accept [the other party’s] version of
the events.”). For example, the jury may have
determined that plaintiff’s photographs of various
buildings and structures, which comprised a large
portion of the claimed works of recognized stature, did
not rise to the level of recognized stature. Such a
finding would have been consistent with, and
supported by, the testimony of defendants’ expert
2

Plaintiff’s Exhibit #36 lists a total of 255 works of art, but 109 of
those works include only a “No Photograph Available” image in
Plaintiff’s Exhibit #52. When all of the duplicate prints are
included, the total count becomes 1,457 works, with 640 of those
works without any visual depiction.

App. 22
witnesses who opined that none of plaintiff’s works of
art were of recognized stature. The jury also could have
rationally rejected the idea that every single work of
art created by plaintiff met the standard of recognized
stature considering that he had never sold any of his
artwork. Finally, and perhaps most importantly, the
jury was not required to simply accept plaintiff’s
testimony that all of the works listed in Plaintiff’s
Exhibit #36 were present at the time that defendants
cleaned out the storage unit. A rational jury certainly
could have concluded that it was unlikely plaintiff
stored nearly 1,500 works of recognized stature in a
storage unit with no electricity, no working climate
control system, and no written inventory or insurance
coverage for the works, especially given the testimony
of defendants and others concerning the dirty condition
of the storage unit at the time it was emptied.
Ultimately, plaintiff claims in his renewed motion
for judgment as a matter of law that the jury was
required to accept the blanket conclusions offered by
his experts that every work of art listed in Plaintiff’s
Exhibit #36 qualified as a work of recognized stature,
but that is simply not the case. The evidence presented,
and the inferences that can be drawn therefrom, was
sufficient to support the jury’s verdict that only four
works of recognized stature were intentionally
destroyed by defendants. Under these circumstances,
the court is required to leave the judgment
undisturbed, and plaintiff’s Rule 50(b) motion is
denied.

App. 23
II. MOTION FOR NEW TRIAL
Plaintiff’s alternative request for a new trial fails
for similar reasons. Under Rule 59(a), “[a] court may
only order a new trial if the jury’s verdict is against the
manifest weight of the evidence, or if for other reasons
the trial was not fair to the moving party.” Willis v.
Lepine, 687 F.3d 826, 836 (7th Cir. 2012). A motion for
new trial under Rule 59(a) claiming insufficient
damages will be denied and the court “will uphold a
jury’s verdict as long as there is a reasonable basis in
the record to support it.” Frizzell v. Szabo, 647 F.3d
698, 702 (7th Cir. 2011). The court reviews “the
damages evidence in the light most favorable to the
jury’s verdict, and the verdict must stand unless there
is no rational connection between the evidence and the
jury’s award.” McNabola v. Chi. Transit Auth., 10 F.3d
501, 516 (7th Cir. 1993).
As noted above, the jury was not required to accept
plaintiff’s evidence and could have rationally concluded
that there were only four works of recognized stature
that were destroyed by defendants. Indeed, a review of
the testimony of Kevin and Pamela Doyle, the two
primary defendants in this case, provides sufficient
support for the jury’s verdict. At trial, Kevin Doyle
identified only two paintings that he had seen at the
storage unit and that were thrown into the dumpster:
“Father, Son, and Holy Ghost, 2002” and “The Universe
is Burning, 2002.”3 Pamela Doyle’s testimony is not as

3

The court notes that there are two works of art titled “The
Universe is Burning, 2002,” which are listed in Plaintiff’s Exhibit
36 as #285 and #290. Kevin Doyle appears to be discussing #290,

App. 24
precise when viewed through the trial transcript,
although she did testify about one exhibit that was
shown to her, but never identified by name, as a “piece
of artistic material” that she had seen in the storage
unit and had thrown into the dumpster. She also
recalled seeing “some posters with words written on
them sort of like this exhibit,” which she later
identified on cross-examination as the “Refugee”
poster.4 Given this testimony, the jury could have
determined, without resorting to a compromise verdict
as plaintiff suggests, that there were only four works of
recognized stature in the storage unit that were
intentionally destroyed by defendants. Accordingly, the
court cannot say that the jury’s verdict was against the
manifest weight of the evidence or order a new trial on
this basis.
In his motion for new trial, plaintiff also argues that
he was severely prejudiced by various evidentiary
errors during the trial. As an initial matter, it is
difficult to say that plaintiff suffered any prejudice as
a result of this court’s evidentiary rulings given that
the jury returned a verdict in his favor on all counts.
Plaintiff has identified certain evidentiary rulings that
he believes were adverse to his position and potentially
which was a painting on plywood, whereas plaintiff described #285
during his testimony as “one of [his] most important exhibitions”
because it was the “high moment of [his] career as a landscape
painter.” It is possible the jury determined that both of these
paintings were destroyed.
4

Pamela Doyle also acknowledged that “there were some things
rolled up in tubes” that were discarded, but she did not know
whether those tubes contained any paintings.

App. 25
prejudicial, but he has not explained how that
prejudice materialized. Indeed, the only thing plaintiff
could complain about is the amount of damages that
were awarded to him, but there is no argument in his
motion linking any of the alleged evidentiary errors to
the jury’s determination of damages. Accordingly, the
court could deny the motion for new trial on this basis
alone.
In any event, the court has reviewed the claimed
evidentiary errors and finds no basis to order a new
trial in this matter. Plaintiff first argues that the court
erred in allowing testimony concerning plaintiff’s
conviction that was over ten years old. This issue was
thoroughly analyzed by the court in response to
plaintiff’s motion in limine #1, as well as his motion to
reconsider that initial ruling, and the court stands by
its determination that plaintiff’s 2003 conviction was
admissible under Rule 609. The jury was entitled to
consider this evidence for purposes of impeachment
and nothing that unfolded during the trial alters this
conclusion.
Next, plaintiff alleges that the cumulative effect of
several other evidentiary errors was prejudicial. In
order to prevail on a “cumulative effect” argument,
plaintiff must show: “(1) that multiple errors occurred
at trial; and (2) those errors, in the context of the entire
trial, were so severe as to have rendered [the] trial
fundamentally unfair.” Christmas v. City of Chicago,
682 F.3d 632, 643 (7th Cir. 2012). Plaintiff is unable to
meet this burden. In his motion, plaintiff asserts,
without much argument or any citation to legal
authority, that the court erred by (1) allowing evidence

App. 26
of plaintiff’s wealth, (2) allowing evidence concerning
the Pulitzer Prize Committee, (3) precluding plaintiff
from testifying about certain insurance valuation
documents, and (4) allowing defendants to present
evidence of postcards of various Chicago landmarks.
After consideration, the court stands by its rulings and
finds no error with regard to any of these issues. The
evidence concerning plaintiff’s wealth was minimal but
was nevertheless relevant to the issue of whether
plaintiff could have procured insurance for his works of
art that were allegedly destroyed by defendants. The
issue concerning the Pulitzer Prize Committee was also
a minor one, but it was fair for defendants to clarify the
scope of that alleged accolade as it may have been
relevant to whether plaintiff’s works of art should be
considered to have recognized stature. As for the
insurance valuations, this issue was addressed before
trial within the context of defendants’ motion in limine
#1, and the court continues to believe that the value
plaintiff placed on his own works of art that were
exhibited or donated after the destruction of plaintiff’s
property was not relevant and would have been an
improper subject for plaintiff to testify about since he
was not qualified as an expert in the field of art
appraisal. Finally, the court finds no error in allowing
defendants to present evidence of commerciallyavailable postcards to compare and contrast to certain
photographs that plaintiff claimed should be considered
works of recognized stature. Accordingly, the court
finds no error in any of the issues identified by plaintiff
in his motion for new trial. Moreover, even if one or
more of the court’s evidentiary rulings could be
considered erroneous, there is nothing to credibly
suggest that these errors were so severe, either

App. 27
individually or cumulatively, that the trial became
fundamentally unfair as a result.
Finally, without presenting any new argument on
the subject, plaintiff asserts that the court erred in
reducing the damages that were awarded by the jury.
This undeveloped argument, in which plaintiff
essentially asks the court to reconsider its ruling on the
proper amount of damages, is insufficient and provides
no basis for a new trial.
For all these reasons, plaintiff’s motion for new trial
is denied.
III. MOTION TO ALTER OR AMEND
JUDGMENT
In his motion, plaintiff also asks the court to amend
the judgment to include an award of prejudgment
interest. “[A] motion for prejudgment interest filed
after entry of a final judgment is a motion to alter or
amend the judgment under Rule 59(e).” McNabola, 10
F.3d at 520. “Rule 59(e) motions may not be used to
make arguments that could and should have been
made before the district court rendered a judgment.”
Miller v. Safeco Ins. Co. of Am., 683 F.3d 805, 815 (7th
Cir. 2012). Here, because plaintiff never raised the
issue of prejudgment interest in the final pretrial order,
either in his statement of damages or his trial brief, the
court declines to consider the issue. See First State
Bank of Monticello v. Ohio Cas. Ins. Co., 555 F.3d 564,
572 (7th Cir. 2009) (“The district court was entitled to
conclude that raising the issue of prejudgment interest
for the first time in a Rule 59(e) motion, after summary
judgment was entered, was too late.”); Thorne v.

App. 28
Member Select Ins. Co., No. 2:09-CV-87-JEM, 2017
WL1089211, at *3 (N.D. Ind. Mar. 22, 2017) (declining
to address the merits of the plaintiff’s request for
prejudgment interest in a Rule 59(e) motion, even
though it was “mentioned” in his complaint).
Even if the court considers the issue, however, there
is no basis for an award of prejudgment interest in this
case. Turning first to plaintiff’s VARA claim, it is
undisputed that the statute does not provide, one way
or the other, for an award of prejudgment interest for
this type of claim. Plaintiff instead relies on a general
rule that “prejudgment interest should be
presumptively available to victims of federal law
violations.” Gorenstein Enters., Inc. v. Quality CareUSA, Inc., 874 F.2d 431, 436 (7th Cir. 1989). This
presumption, however, does not mean that an award of
prejudgment interest is required in every case.
In this case, plaintiff elected an award of statutory
damages on his VARA claim. The Seventh Circuit has
concluded, albeit under a different statute, that when
a plaintiff has been “awarded statutory damages,
prejudgment interest would be inappropriate.” Matter
of Marshall, 970 F.2d 383, 386 (7th Cir. 1992).
Although plaintiff cites some authority from outside
this circuit suggesting that a district court can, in its
discretion, still award prejudgment interest under the
Copyright Act for statutory damage awards, see, e.g.,
Barclays Capital Inc. v. Theflyonthewall.com, 700
F. Supp. 2d 310, 329 (S.D.N.Y. 2010), rev’d in part, 650
F.3d 876 (2d Cir. 2011), this court is required to follow
the Seventh Circuit precedent unless and until it has
been overturned.

App. 29
In any event, even if the court could award
prejudgment interest on the statutory damages, the
court does not believe that it would be appropriate in
this case. As reflected in the verdict form, the jury
specifically found that defendants did not willfully
violate plaintiff’s rights under VARA, and there is no
indication whatsoever that defendants intentionally
delayed the trial or otherwise sought to increase the
harm to plaintiff. Moreover, under the unique facts of
this case, the destruction of plaintiff’s artwork did not
deprive plaintiff of any actual money, since he did not
sell his artwork, and therefore an award of
prejudgment interest is not necessary to fully
compensate plaintiff for his loss or otherwise ensure
that plaintiff is not deprived of the time-value of
money. For all these reasons, even if prejudgment
interest is available on the statutory damages award
for plaintiff’s VARA claim, the court would in its
discretion decline to include this amount in the
judgment, as it would result in a windfall for plaintiff.
As for plaintiff’s state-law claims, there is even less
basis for an award of prejudgment interest. In his
motion, plaintiff relies on Section 2 of the Illinois
Interest Act, 815 ILCS 205/2, but the Seventh Circuit
has held that “the Illinois Interest Act does not provide
for pre-judgment interest in tort cases,” Westchester
Fire Ins. Co. v. Gen. Star Indem. Co., 183 F.3d 578, 585
(7th Cir. 1999), and plaintiff’s attempt to establish
otherwise is not persuasive. In any event, even if that
statute did authorize an award of prejudgment interest
in this case, it would only apply if plaintiff could
establish an “unreasonable and vexatious delay of
payment,” which he has not done. 815 ILCS 205/2; see

App. 30
also Telemark Dev. Grp., Inc. v. Mengelt, 313 F.3d 972,
986 (7th Cir. 2002) (“[A]n honest dispute as to the
existence of a legal obligation will not result in an
unreasonable and vexatious delay which would permit
recovery of interest.”). Here, plaintiff took an
unfortunate landlord-tenant dispute and morphed it
into a demand for more than $11 million in damages
from defendants. Under these circumstances,
defendants cannot be faulted for defending themselves
against plaintiff’s claims. Accordingly, the court also
declines to award prejudgment interest on plaintiff’s
state-law claims.
For all these reasons, plaintiff’s motion to alter or
amend judgment to include prejudgment interest is
denied.
IV. MOTION FOR ATTORNEY’S FEES
As a final matter, both parties have filed a position
paper on the issue of attorney’s fees and costs with
respect to the VARA claim advanced in Count I of
plaintiff’s second amended complaint. The Copyright
Act provides that “the court in its discretion may allow
the recovery of full costs by or against any party” and
“may also award a reasonable attorney’s fee to the
prevailing party as part of the costs.” 17 U.S.C. § 505.
Given this language, the Supreme Court has explained
that “[p]revailing plaintiffs and prevailing defendants
are to be treated alike, but attorney’s fees are to be
awarded to prevailing parties only as a matter of the
court’s discretion.” Fogertyv. Fantasy, Inc., 510 U.S.
517, 534 (1994); see also Riviera Distribs., Inc. v. Jones,
517 F.3d 926, 928 (7th Cir. 2008) (concluding that

App. 31
“§ 505 treats both sides equally and allows an award in
either direction”).
In their position papers, both sides argue that they
should be considered the prevailing party entitled to
attorney’s fees and costs. At first blush, this appears to
be a simple issue as plaintiff received a judgment in his
favor and will be entitled to collect a total of $300,000
in damages from defendants. The Supreme Court has
explained that the term “prevailing party” is a “legal
term of art” which requires “a court-ordered change in
the legal relationship between the plaintiff and the
defendant,” such as an enforceable judgment on the
merits. Buckhannon Bd. & Care Home, Inc. v. Va.
Dep’t of Health & Human Res., 532 U.S. 598, 604
(2001); see also Riviera, 517 F.3d at 928 (“[A] litigant
prevails (for the purpose of fee-shifting statutes) when
it obtains a material alteration of the legal relationship
of the parties.”). The analysis in this case, however, is
not so simple.
As defendants correctly point out in their filings,
plaintiff’s VARA “claim” in Count I was actually
numerous claims joined into one count. Plaintiff sought
to recover for the destruction of 1,457 alleged works of
recognized stature, and he prevailed, but only as to
four of those works of art. Defendants, on the other
hand, successfully defended against plaintiff’s claims
with respect to the other 1,453 works. If these unique
claims had each been brought in a separate count of
plaintiff’s complaint, then there would have been a
judgment in favor of defendants on the vast majority of
plaintiff’s VARA claims. The fact that plaintiff chose to
plead all of his VARA claims in one count should not

App. 32
dictate who is determined to be the prevailing party for
purposes of awarding costs under § 505. The court also
notes that, unlike in the context of civil rights cases
where the plaintiff is treated more favorably than the
defendant and need not prevail on every single claim to
be considered the prevailing party, the parties in a
copyright action are supposed to be treated equally for
purposes of § 505. See Fogerty, 510 U.S. at 534. When
determining who is the prevailing party under that
provision, “[t]here is no precise rule or formula for
making these determinations, but instead equitable
discretion should be exercised.” Id.
The reality of this case is that both parties prevailed
in some significant aspects, and both parties lost in
some significant aspects, such that it is difficult to
declare one clear winner.5 Plaintiff prevailed by
receiving a judgment in his favor, whereas defendants
prevailed by successfully defending against most of
plaintiff’s VARA claims and the enormous amount of
damages he sought. Under these circumstances, the
court has determined, in its discretion, that there is no
prevailing party entitled to attorney’s fees and costs
under § 505.6 Accordingly, defendant’s motion for

5

Plaintiff’s apparent dissatisfaction with the judgment, as
reflected above in his various requests for post-judgment relief,
shows that even he does not believe he prevailed on all aspects of
his case. Although this is certainly not dispositive of the issue, it
is telling.

6

In the event that the court had to declare only one party as the
prevailing party in this case, it is not clear who that would be, but
that is irrelevant. No matter which party would be considered the
prevailing party under those circumstances, the court still would

App. 33
attorney’s fees and expenses, as well as plaintiff’s
request for the same, are both denied, and each party
will bear their own costs.
Date: 6/14/2018

ENTER:
s/ _________________________
FREDERICK J. KAPALA
District Judge

exercise its discretion under § 505 and decline to award that party
attorney’s fees and costs. Put another way, even if the court had
declared plaintiff as the prevailing party, that still would not have
changed the outcome of the fee request under the circumstances of
this case.

App. 34

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
Case No: 11 C 1826
Judge Frederick J. Kapala
[Filed December 13, 2017]
_____________________________
Christian K. Narkiewicz-Laine, )
)
Plaintiff(s),
)
)
v.
)
)
Kevin C. Doyle, et al.,
)
)
Defendant(s).
)
_____________________________ )
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate
box):
*

:

*

*

other: Judgment is entered in favor of
plaintiff, Christian K. Narkiewicz-Laine, and against
defendants, Kevin C. Doyle, Pamela Doyle, John T.
Doyle Trust A, and John T. Doyle Trust B, in the
amount of $120,000 on plaintiff’s Visual Artists Rights

App. 35
Act claim and $180,000 on plaintiff’s trespass,
conversion, and negligence claims, for a total recovery
of $300,000.
This action was (check one):

: tried by a jury with Judge Frederick J. Kapala
presiding, and the jury has rendered a verdict.
*

*

*

Date: 12/13/2017
Thomas G. Bruton, Clerk of Court
/S/ Susan Bennehoff, Deputy Clerk

App. 36

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
Case No: 11 C 1826
Judge Frederick J. Kapala
[Filed December 12, 2017]
_____________________________
Christian K. Narkiewicz-Laine, )
)
Plaintiff,
)
)
v.
)
)
Kevin C. Doyle, et al.,
)
)
Defendants.
)
_____________________________ )
ORDER
Plaintiff’s position on the jury verdict [273] is
rejected, and defendants’ position on the jury verdict
[274] is accepted. Accordingly, the court directs the
clerk to enter judgment in favor of plaintiff, Christian
K. Narkiewicz-Laine, and against defendants, Kevin C.
Doyle, Pamela Doyle, John T. Doyle Trust A, and John
T. Doyle Trust B, in the amount of $120,000 on
plaintiff’s Visual Artists Rights Act claim and $180,000
on plaintiff’s trespass, conversion, and negligence
claims, for a total recovery of $300,000.

App. 37
STATEMENT
At the conclusion of the jury trial in this matter, the
jury returned a verdict in favor of plaintiff, Christian
K. Narkiewicz-Laine, and against defendants, Kevin C.
Doyle, Pamela Doyle, John T. Doyle Trust A, and John
T. Doyle Trust B, on all remaining counts.1 In
particular, the jury found in favor of plaintiff on his
claim against defendants under the Visual Artists
Rights Act of 1990 (“VARA”) raised in Count I of the
second amended complaint and awarded plaintiff
actual damages of $120,000 for “VARA property
destroyed by Defendants.” In the alternative, the jury
also found that an award of $120,000 in statutory
damages under VARA would be appropriate based on
the destruction of four works of visual art.2 The jury
also found in plaintiff’s favor on his common law claims
of trespass, conversion, and negligence raised in

1

In the final pretrial order, plaintiff indicated that he was
voluntarily waiving the claim raised in Count II of the second
amended complaint. Accordingly, that count is hereby dismissed
with prejudice.

2

Although plaintiff has elected statutory damages instead of
actual damages, this makes no difference in the court’s analysis.
Statutory damages are merely an alternative method of
compensating a plaintiff for a violation of his VARA rights. See 17
U.S.C. § 504(c)(1) (providing that “the copyright owner may elect,
at any time before final judgment is rendered, to recover, instead
of actual damages and profits, an award of statutory damages for
all infringements involved in the action”); see also Martin v. City
of Indianapolis, 4 F. Supp. 2d 808, 811 (S.D. Ind. 1998), aff’d, 192
F.3d 608 (7th Cir. 1999) (“Statutory damages may serve purposes
traditionally associated with legal relief, such as compensation and
punishment.”).

App. 38
Counts III, IV, and V and awarded plaintiff actual
damages of $300,000 on those claims. At defendants’
request, the court withheld entry of judgment on the
verdict in order to allow the parties time to brief the
issue of whether the jury’s verdict needed to be
reconciled in order to avoid a potential double recovery
for plaintiff. After careful consideration of the issue and
review of the parties’ submissions, the court concludes
that the jury’s verdict should be read to reflect a total
recovery of $300,000.
“[I]t is well settled that an injured plaintiff may
receive only one full compensation for his or her
injuries,” and that “a plaintiff is not entitled to recover
twice for the same injury.” Illinois Sch. Dist. Agency v.
Pac. Ins. Co., 571 F.3d 611, 615 (7th Cir. 2009); see also
Pasquale v. Speed Prod. Eng’g, 166 Ill. 2d 337, 368
(1995) (discussing the “long-recognized principle in
Illinois that a plaintiff shall have only one satisfaction
for an injury”). Indeed, the Seventh Circuit has
explained that “[a] judgment that can be read to allow
a plaintiff to recover twice for the same injury contains
a manifest error of law.” Duran v. Town of Cicero, Ill.,
653 F.3d 632, 642 (7th Cir. 2011). “The determination
of whether two awards compensate the same injury is
a matter within the sound discretion of the trial court.”
Illinois Sch. Dist. Agency, 571 F.3d at 616.
In this case, the dispute over the jury’s verdict is
relatively straightforward. Plaintiff argues that there
is no overlap between the verdicts and that it would not
be a double recoveryif the court awarded both $120,000
in statutory damages on the VARA claim and $300,000
in actual damages on the common law claims for a total

App. 39
recovery of $420,000. Defendants, on the hand, contend
that there would be an impermissible double recovery
under that scenario because the $300,000 awarded on
the common law claims includes $120,000 in actual
damages attributable to the four VARAprotected works
that formed the basis for the jury’s award on Count I.
Therefore, according to defendants, the court needs to
reduce the award on the common law claims by this
amount, from $300,000 down to $180,000, in order to
avoid a double recovery for the destruction of plaintiff’s
four VARA-protected works of art.
In order to properly interpret the jury’s verdict, the
court has looked closely at the jury instructions and the
verdict form. “[A]bsent evidence to the contrary, we
assume that juries follow a court’s instructions.” 3M v.
Pribyl, 259 F.3d 587, 600 (7th Cir. 2001); see also
Duran, 653 F.3d at 643 (assuming that the jury
followed the specific instructions that were given before
concluding that “the judgment must be amended to
avoid the possibility of double recovery”).
In Jury Instruction No. 42, the jury was told that
plaintiff may recover under VARA for “any actual
losses he suffered because of the destruction of works
of visual art of recognized stature,” and in Jury
Instruction No. 43, they were told that the term “actual
losses” meant “the amount of money which will
reasonably and fairly compensate [plaintiff] for . . .
[t]he loss from the destruction of Plaintiff’s works of
visual art of recognized stature, determined by the fair
market value of the property immediately before the
occurrence.” There is no dispute that the jury

App. 40
determined that $120,000 was the fair market value of
plaintiff’s four VARA-protected works.
In Jury Instruction No. 45, the jury was instructed
how to calculate damages if plaintiff prevailed on one
or more of the common law claims. The jury was told
that it should “fix the amount of money which will
reasonably and fairly compensate [plaintiff] for . . .
[t]he loss from the destruction of any of Plaintiff’s
personal property or any property which he was
holding for others, determined by the fair market value
of the property immediately before the occurrence.” The
jury determined that a total of $300,000 was the proper
amount of compensation under these counts. Nothing
in the jury instructions, and nothing in the verdict
form, directed the jury to exclude from its calculation
of damages on the common law claims the loss caused
by the destruction of plaintiff’s VARA-protected works.
In fact, the relevant instruction specifically tells the
jury to calculate the loss from “the destruction of any of
Plaintiff’s personal property,” (emphasis added), which
would necessarily include the four VARA-protected
works. Although plaintiff suggests in his position paper
that “[t]he jury may have excluded the four VARA
works they found from their determination of the
damages under the common law counts,” this is
nothing more than speculation and “[t]here is nothing
in the record to support this interpretation of the jury’s
verdict.” Duran, 653 F.3d at 643. Accordingly, if the
court assumes as it must that the jury carefully and
accurately followed Jury Instruction No. 45, see Pribyl,
259 F.3d at 600, then it is clear that the $300,000
award on the common law claims includes the $120,000
loss to the four VARA-protected works plus an

App. 41
additional $180,000 for the loss to plaintiff’s other
property that was destroyed.
“To prevent double recovery by [plaintiff],
defendants are entitled to a reduction in damages . . .
to offset any amounts that the plaintiff already has
collected from other sources in compensation for the
same injury.” Illinois Sch. Dist. Agency, 571 F.3d at
615-16. Here, because the jury determined that
plaintiff’s loss was $120,000 on the VARA claim, he
cannot recover that same amount a second time in
connection with the common law claims. Accordingly,
the court will reduce the award on Counts III, IV, and
V to $180,000 in order to avoid this double recovery,
resulting in a total award of $300,000 on all counts.
In his position paper, plaintiff cites Nintendo of
America, Inc. v. Dragon Pacific International, 40 F.3d
1007 (9th Cir. 1994), in support of his argument that he
can recover both statutory damages on his VARA claim
and actual damages on the common law claims. In that
case, the defendant was importing and selling video
game cartridges that were compatible with Nintendo’s
system. Id. at 1009. The cartridges sold by the
defendant contained numerous games per cartridge,
including several Nintendo copyrighted games, and
they were marketed as Nintendo products by using
Nintendo’s trademark. Id. Nintendo sued the defendant
alleging both copyright and trademark infringement.
Id. Following a bench trial, the Court awarded
Nintendo both statutory damages on its copyright
claim as well as actual damages on its trademark
claim, which the defendant argued on appeal was an
impermissible double recovery. Id. at 1009-10. The

App. 42
Ninth Circuit affirmed, holding that the different
damages awarded were appropriate because
“Nintendo’s claims were not . . . based on the same
wrongful act” since the defendant had “committed two
separate violations.” Id. at 1010-11.
The court has reviewed Nintendo, as well as the
other cases cited by plaintiff, but finds that the instant
case is clearly distinguishable. In Nintendo, the
defendant committed two separate and distinct
wrongful acts: (1) he violated Nintendo’s copyrights by
selling unauthorized copies of Nintendo’s games, and
(2) he violated Nintendo’s trademark rights by using its
trademark to market his unofficial game cartridges.
Indeed, it would have been possible for the defendant
in Nintendo to commit only one of these violations—for
example, by selling the illegal cartridges without using
the Nintendo trademark—which further shows that
there were two distinct wrongful acts. In contrast, in
the instant case, all of plaintiff’s claims are based on a
single wrongful act: the destruction of plaintiff’s
property. Given this distinction, the Nintendo decision
does not help plaintiff, as it does not persuade the court
that plaintiff is entitled to recover damages for the
destruction of his VARA-protected works under both
VARA and the common law claims.
In his position paper, plaintiff also argues briefly
that defendants should be precluded from raising this
issue of double recovery because they did not object to
the final damages instruction or the verdict form.3 The

3

Plaintiff also argues that the proposed formula in defendant’s
proposed verdict form did not require the reduction in damages for

App. 43
court disagrees. It was clear from the filings in the final
pretrial order and the discussion held during the jury
instruction conference that defendants were objecting
to any sort of double recovery. The parties, however,
were proceeding under the belief that the issue had
already been resolved. Indeed, after the issue of
“double counting” was raised by defense counsel,
plaintiff’s counsel explained to the court that “there are
some cases that suggest you can recover under
copyright and in the same case also recover under
trademark,” which was obviously a reference to the
Nintendo case discussed above, but then assured the
court that plaintiff was “not tryingto recover for VARA
works . . .both under VARA and under the common
law.” Counsel then restated his position that plaintiff
was not asking for any sort of double counting and
reiterated a final time that plaintiff was “not trying to
double recover.” Given these comments, defendants
cannot be faulted for not continuing their objection on
the issue of a potential double recovery when both
parties seemed to be in agreement on the issue.
Accordingly, the court rejects plaintiff’s argument that
defendants have waived their right to raise this issue.

which they now argue. While that is true, the argument is
misleading because defendants’ proposed verdict form would have
already accounted for the potential overlap. Indeed, defendants’
proposed verdict form specifically instructed the jury, with respect
to the common law claims, “do not include any award for any
damages, actual or statutory, for any property that you included
in a damage award to Plaintiff under Count I for VARA.” Given
this language, there would have been no need to reduce the
damages award on the common law claims to avoid a double
recovery.

App. 44
In fact, given the statements made by plaintiff’s
counsel during the instruction conference, the court
finds that plaintiff is precluded from raising that
argument in the first place. When discussing the issue
of a potential double recovery, counsel explained that
plaintiff was not seeking to recover “both under VARA
and under the common law,” and he agreed that, if the
jury”awarded actual damages and VARA damages,
whichever the lesser would simply be deducted out.”
That is precisely the type of relief defendants are now
seeking, and plaintiff is in no position to prevent
defendants from seeking to reconcile the jury’s verdict
in this manner. As noted earlier, defendants had
originally suggested a verdict form that would have
helped alleviate some of the confusion that ultimately
resulted from the jury’s verdict, but they agreed to
withdraw that form after receiving these assurances
from plaintiff. Given these circumstances, the court
finds that the doctrine of judicial estopppel prevents
plaintiff from now asserting a position that is
inconsistent with the comments made at the
instruction conference. See New Hampshire v. Maine,
532 U.S. 742, 749 (2001) (“Where a party assumes a
certain position in a legal proceeding, and succeeds in
maintaining that position, he may not thereafter,
simply because his interests have changed, assume a
contrary position, especially if it be to the prejudice of
the party who has acquiesced in the position formerly
taken by him.” (alteration omitted)).
For all these reasons, the court finds that the jury’s
award on the common law claims must be reduced by
the amount plaintiff recovered under Count I for the
destruction on his VARA-protected works in order to

App. 45
avoid an improper double recovery. Accordingly, the
court will enter judgment on the jury’s verdict, as
modified by this order, in favor of plaintiff in the
amount of $120,000 on his VARA claim raised in Count
I and $180,000 on his trespass, conversion, and
negligence claims raised in Counts III, IV, and V, for a
total recovery of $300,000.
Date: 12/12/2017

ENTER:
s/ _________________________
FREDERICK J. KAPALA
District Judge

App. 46

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
No. 18-2535
[Filed August 14, 2019]
______________________________________
CHRISTIAN K. NARKIEWICZ-LAINE, )
Plaintiff-Appellant,
)
)
v.
)
)
KEVIN C. DOYLE, et al.,
)
Defendants-Appellees.
)
______________________________________ )
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:11-CV-1826
Frederick J. Kapala, Judge.
Before
JOEL M. FLAUM, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

App. 47
ORDER
On consideration of the petition for rehearing filed
by plaintiff-appellant on August 2, 2019, all members
of the original panel have voted to deny the petition for
rehearing.
Accordingly, the petition for rehearing is hereby
DENIED.

